                                     SOCIAL SECURITY
MEMORANDUM

Date:   July 31, 2008                                                          Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Inspector General

Subject: Quick Response Evaluation: Connecticut Department of Social Services’ Request for
        Additional Funding (A-15-08-28120)


        The attached final quick response evaluation presents the results of our review. The
        objective of our review was to evaluate the Connecticut Department of Social Services’
        (Parent Agency) request for $46,940 in additional funding for Federal Fiscal Year 2003
        indirect costs. The Parent Agency allocates indirect costs to its components, one of
        which is the Connecticut Disability Determination Services, which is funded by the
        Social Security Administration.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment

        cc:
        Candace Skurnik
      QUICK RESPONSE
       EVALUATION
Connecticut Department of Social Services'
    Request for Additional Funding

               A-15-08-28120




                 July 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                            Background
OBJECTIVE
The objective of our review was to evaluate the Connecticut Department of Social
Services’ (Parent Agency) request for $46,940 in additional funding for Federal Fiscal
Year (FFY) 2003 indirect costs. The Parent Agency allocates indirect costs to its
components, one of which is the Connecticut Disability Determination Services
(CT-DDS), which is funded by the Social Security Administration (SSA).

BACKGROUND
On September 7, 2004, we issued a report on Indirect Costs Claimed by the
Connecticut Disability Determination Services (A-15-03-23041). The report
recommended that Connecticut return money to SSA for certain Statewide central
service costs that were erroneously allocated to the CT-DDS in FFY 2003. Specifically,
we excluded (1) the Department of Administrative Services/Bureau of Collection
Services (DAS/BCS) and (2) the Office of the Attorney General (OAG) statewide central
service costs related to the Child Support Enforcement, Title IV-D program. 1

On September 28, 2007, we issued a Follow-up Audit: Indirect Costs for the
Connecticut Disability Determination Services for the Period July 1, 2003 through
June 30, 2005 (A-15-07-16034). This audit found that Connecticut had refunded the
money as recommended in the prior report.

On October 12, 2007, SSA formally notified the Parent Agency that the indirect cost
allocations for FFY 2003 had been finalized. However, on December 17, 2007, the
Parent Agency responded that, based on its books and records, the amount the Parent
Agency had refunded was too high. The Parent Agency requested additional funding of
$46,940 to compensate for the indirect costs to which the Parent Agency believed it was
entitled.




1
 The Child Support Enforcement program was established in 1975 as Title IV-D of the Social Security
Act, § 451 et seq. (42 U.S.C. § 651 et seq.). Its purpose is to require that States provide a number of
services including locating noncustodial parents, establishing paternity, obtaining child and spousal
support, and ensuring that assistance in obtaining support will be available to all children for whom such
assistance is requested.


CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)                             1
                                                     Results of Review
The Parent Agency requested additional funding of $46,940 to compensate for the
indirect costs to which the Parent Agency believed it was entitled as follows.

                       Parent Agency’s Calculation
         of Final Adjustment to Allowable CT-DDS Indirect Costs
           FFY 2003          OIG          CT-DDS
         Quarter Ended    Adjustment    Adjustment    Difference

        March 31, 2003            $52,399          $37,667         $14,732
        June 30, 2003             245,300          213,092          32,208
        Total                    $297,699         $250,759         $46,940

We found that the Parent Agency did not adjust its books and records for our prior
recommendations to refund indirect costs that were charged to SSA in error. In our
opinion, the request for $46,940 in additional funding represents the amount of indirect
costs that were inappropriately charged to the CT-DDS instead of the Title IV-D
program.

Specifically, we verified that the Parent Agency adjusted the SSA-4513, State Agency
Report of Obligations for SSA Disability Programs, to correct the $46,940 in indirect
costs that were previously charged in error. However, the Parent Agency did not
remove $46,940 of indirect costs from the CT-DDS’ accounting books and records.




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)           2
                                      Matter for Consideration
Based on our evaluation, additional funding for FFY 2003 indirect costs is not
warranted. We brought this to the attention of the Parent Agency and they agreed with
our opinion that no funds were due to or from the Parent Agency for FFY 2003. See
Appendix C for the Parent Agency’s response.




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)        3
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Connecticut Department of Social Services Response
APPENDIX D – OIG Contacts and Staff Acknowledgments




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)
                                                                           Appendix A

Acronyms
    CAP                     Cost Allocation Plan

    CT-DDS                  Connecticut Disability Determination Services

    DAS/BCS                 Department of Administrative Services/Bureau of
                            Collection Services
    DSS                     Department of Social Services

    FFY                     Federal Fiscal Year

    OAG                     Office of the Attorney General

    QE                      Quarter Ending

    Parent Agency           Connecticut Department of Social Services

    SSA                     Social Security Administration

    SSA-4513                State Agency Report of Obligations for SSA Disability
                            Programs
    SWCAP                   Statewide Cost Allocation Plan

    U.S.C.                  United States Code




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)
                                                                           Appendix B

Scope and Methodology
After we completed our audit of the Federal Fiscal Year (FFY) 2003 indirect cost
allocation for the Connecticut Disability Determination Services (CT-DDS), the
Connecticut Department of Social Services (Parent Agency) requested $46,940 in
additional funds. The Social Security Administration (SSA) requested that we comment
on the Parent Agency’s request for additional funds. To complete our objectives, we:

•   Reviewed Office of Management and Budget Circular A-87, Cost Principles for
    State, Local and Indian Tribal Governments, and other instructions pertaining to
    administrative costs incurred by the CT-DDS.

•   Interviewed staff at the Parent Agency.

•   Reviewed prior SSA Office of the Inspector General reports as follows.

     Follow-Up Review on Potential Indirect Cost Rate Increases at Connecticut
      Disability Determination Services (A-15-03-23041), September 7, 2004.

     Follow-up Audit: Indirect Costs for the Connecticut Disability Determination
      Services for the Period July 1, 2003 through June 30, 2005 (A-15-07-16034),
      September 28, 2007.

•   Reviewed the computation of the indirect costs charged to the CT-DDS. The
    specific steps performed consisted of the following.

     Determined whether the Statewide Cost Allocation Plan allocation method fairly
      and accurately allocated expenses to the CT-DDS for Department of
      Administrative Services/Bureau of Collection Services and Office of the Attorney
      General costs.

     Compared the final amount of indirect Department of Administrative
      Services/Bureau of Collection Services and Office of the Attorney General cost
      allocated to the CT-DDS with our recommended amount, to ensure that all prior
      refunds were made.

•   Reconciled the accounting records to the CT-DDS indirect costs reported on Form
    SSA-4513, State Agency Report of Obligations for SSA Disability Programs.




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)       B-1
We determined that the computerized data used during our review were sufficiently
reliable given our objective and intended use of the data and should not lead to
incorrect or unintended conclusions. This evaluation was conducted in accordance with
the Quality Standards for Inspections. Our field work was performed at SSA
Headquarters from January to May 2008.




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)   B-2
                                                                           Appendix C

Connecticut Department of Social Services
Response




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)
               DEPARTMENT OF SOCIAL SERVICES
        DIVISION OF FINANCIAL MANAGEMENT & ANALYSIS
                        MEMORANDUM

To:           Mark Meehan, SSA/OIG/OG

From:         Lee Voghel, Director

Date:         April 25, 2008

Re:           Indirect Costs for FY 2003


This is a follow up to our telephone conference on March 28th and additional
documentation you forwarded to us to support your conclusion that no funds were due
the DSS as a result of reprocessing the CAP for the March and June quarters of FFY
2003.

We reviewed the reports that were produced as a result of our reprocessing the three
quarters, March, June and September, 2003. The older CAP files were archived, and
had to be retrieved and re-run to complete our analysis, because of the time it has taken
to finalize these audits. We reprocessed the Cost Allocation Plans for the QE 03/31/03,
QE 06/30/03 and QE 09/30/03 to determine the revised costs allocated to all state and
federal programs.

Our revisions for the QE 03/31/03 and QE 06/30/03 included 100% of OAG/IV-D costs
allocated to the Disability Programs. We assumed that the Comptroller was going to
correct the OAG/IV-D costs through the roll forward adjustment in SWCAP. Since the
SWCAP for SFY 2005 was already final, no roll forward adjustments for OAG/IV-D
could be made for FY 2003. Roll forward adjustments for OAG/IV-D for FY 2004 and
FY 2005 were subsequently made in the SFY 2006 and SFY 2007 SWCAP. We accept
your reduction of 65% of OAG costs allocated to the Disability Programs for the QE
03/31/03 and QE 06/30/03. The reduction was based on the historical pro rata share of
OAG/IV-D costs as compared to the total amount of OAG costs in the SWCAP
calculation. Because these adjustments were not booked by the Comptroller, we are
not able to go back and re-run with actuals and so have agreed to rely on your estimate.

We also reviewed your reconciliation for the QE 09/30/03. In the process of pulling the
original CAP allocations from archive and re-running the quarter, we did not adjust
SWCAP for the disallowed DAS/BCS costs. We have now re-processed the September
quarter to exclude the DAS/BCS costs and ran Schedule .2 reports which allocate
$401,118 to the DDS rather than the $465,886 used in our calculation.



CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)      C-1
Because we are unable to capture the actual adjustments for the March and June
quarters, and based on our respective analyses, we agree with your recommendation
that no funds are due to or from the DSS for FFY 2003.

Please let me know if you have any questions or need additional information.


xc:    Florence Wolford
       M. Gilbert
       K. Carey
       M. Spallone
       T. Rice
       P. Kostek




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)   C-2
                                                                           Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kristen Schnatterly, Acting Audit Director, Financial Audit Division, (410) 965-0433

   Mark Meehan, Acting Audit Manager, Financial Audit Division, (410) 966-7147

Acknowledgments
In addition to those named above:

   Florence Wolford, Auditor-in-Charge, Financial Audit Division, (410) 966-9382

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-08-28120.




CT Department of Social Services’ Request for Additional Funding (A-15-08-28120)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
